TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                        Trends in the Criminal Investigation
                         Division’s Enforcement Activities
                         Showed Improvements; However,
                          Some Goals Were Not Attained



                                            July 1, 2010

                              Reference Number: 2010-30-074




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.


 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                    HIGHLIGHTS


TRENDS IN THE CRIMINAL                                 FY 2004. These percentages validate that tax
INVESTIGATION DIVISION’S                               cases are a priority for the Division.
ENFORCEMENT ACTIVITIES SHOWED                          However, the Division did not meet its goal to
IMPROVEMENTS; HOWEVER, SOME                            complete 3,900 investigations, and instead only
GOALS WERE NOT ATTAINED                                completed 3,848 investigations during FY 2009.
                                                       According to Division management, increased
                                                       resources that were devoted to the prosecution
Highlights                                             of investigations in the pipeline inventory during
                                                       FY 2008 resulted in a significant decrease in
Final Report issued on July 1, 2010                    FY 2008 subject investigation initiations and a
                                                       related decrease in case completions during
Highlights of Reference Number: 201030030 to           FY 2009. The Division also uses the number of
the Internal Revenue Service Chief, Criminal           convictions and the conviction rate as budgetary
Investigation.                                         performance measures. The Division did not
                                                       meet either of its established goals for these
IMPACT ON TAXPAYERS                                    measures, reporting declines in both the number
The Criminal Investigation Division's (the             of convictions and the conviction rate in
Division) primary resource commitment is to            FY 2009. Increased numbers of dismissals
develop and investigate legal source tax crimes.       during FY 2009 (resulting from efforts to reduce
The prosecution of these cases is key to               the pipeline inventory) caused the drop in the
supporting the Internal Revenue Service’s (IRS)        overall conviction rate.
overall compliance goals, enhancing voluntary          In addition, the Division continues to work on
compliance with the tax laws, and promoting            increasing its special agent staffing and
fairness and equity in our tax system.                 coordinating with the operating divisions to
                                                       strengthen the Fraud Referral Program.
WHY TIGTA DID THE AUDIT
This audit was initiated as part of TIGTA’s            WHAT TIGTA RECOMMENDED
Fiscal Year (FY) 2010 Annual Audit Plan and            Although TIGTA made no recommendations in
addresses the IRS’ major management                    this report, IRS officials were provided an
challenge of Tax Compliance Initiatives. The           opportunity to review the draft report. IRS
overall objective of this review was to provide a      management did not provide any report
statistical portrayal with trend analyses of the       comments.
Division’s enforcement activities for FYs 2000
through 2009.
WHAT TIGTA FOUND
The Division achieved its goal, spending
52.4 percent of its time on legal source tax and
72 percent on total tax investigations, both at a
10-year high. The Division also reported that
the number of legal source tax investigation
initiations increased by 13.3 percent and the
number of tax-related initiations increased by
14.4 percent. Further, the number of subjects
convicted of legal source tax crimes increased
2 percent from FY 2008 and has increased
17.5 percent since FY 2004. Similarly, the
number of subjects sentenced for legal source
tax crimes also increased 10.5 percent from
FY 2008 and has increased 40.6 percent since
                                           DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                             July 1, 2010


 MEMORANDUM FOR CHIEF, CRIMINAL INVESTIGATION


 FROM:            (for)      Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Trends in the Criminal Investigation Division’s
                             Enforcement Activities Showed Improvements; However, Some Goals
                             Were Not Attained (Audit # 201030030)

 This report presents the results of our review to provide a statistical portrayal with trend analyses
 of the Criminal Investigation Division’s enforcement activities for Fiscal Years 2000 through
 2009. This review was conducted as part of our Fiscal Year 2010 Annual Audit Plan and
 addresses the major management challenge of Tax Compliance Initiatives.
 Although we made no recommendations in this report, we did provide Internal Revenue Service
 officials an opportunity to review the draft report. Management did not provide us with any
 report comments.
 Copies of this report are also being sent to the Internal Revenue Service managers affected by the
 report. Please contact me at (202) 622-6510 if you have questions or Margaret E. Begg,
 Assistant Inspector General for Audit (Compliance and Enforcement Operations), at
 (202) 622-8510.
                                    Trends in the Criminal Investigation Division’s
                                    Enforcement Activities Showed Improvements;
                                       However, Some Goals Were Not Attained




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          The Division’s Statistics Validate That Legal Source Tax and
          Tax-Related Investigations Are a Priority ....................................................Page 3
          Efforts to Reduce Pipeline Inventory Caused Case Completions to
          Continue to Decline ......................................................................................Page 5
          The Division Works on Increasing Special Agent Staffing..........................Page 6
          Emphasis on Referrals From the Operating Divisions Would Increase
          Investigations Initiated From Internal Sources .............................................Page 7

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 9
          Appendix II – Major Contributors to This Report ........................................Page 10
          Appendix III – Report Distribution List .......................................................Page 11
          Appendix IV – Glossary of Terms................................................................Page 12
          Appendix V – Detailed Charts of Statistical Information.............................Page 15
          Appendix VI – Related Treasury Inspector General for Tax
          Administration Reports.................................................................................Page 28
         Trends in the Criminal Investigation Division’s
         Enforcement Activities Showed Improvements;
            However, Some Goals Were Not Attained




                 Abbreviations

BPR        Business Performance Review
CIMIS      Criminal Investigation Management Information System
FY         Fiscal Year
IRS        Internal Revenue Service
U.S.C.     United States Code
                                 Trends in the Criminal Investigation Division’s
                                 Enforcement Activities Showed Improvements;
                                    However, Some Goals Were Not Attained




                                               Background

In February 2006, the Internal Revenue Service (IRS) released updated compliance estimates,
showing that the gross tax gap 1 was $345 billion in Tax Year 2001. In an explanation provided
in the Criminal Investigation Division’s (the Division) Program Assessment Rating Tool, the
Office of Management and Budget examiners noted that the IRS has a goal regarding the
percentage of taxpayers who believe it is acceptable to cheat on their taxes. Specifically, the IRS
planned to reduce this percentage from 12 percent in Fiscal Year (FY) 2004 to 9 percent in
FY 2009. The IRS reached this goal in FY 2008. However, a FY 2009 taxpayer attitude survey
conducted by the IRS Oversight Board identified some softening of taxpayers’ attitudes about
cheating on their income tax responsibilities. According to survey results, 13 percent of the
surveyed population believed that it was acceptable to cheat on their taxes, an increase compared
to 9 percent from FY 2008. Eighty-four percent said it was not at all acceptable. The IRS
Oversight Board, which conducted the survey, did not offer any perspective on why taxpayers’
attitudes towards cheating might have changed. The IRS Commissioner, while emphasizing a
balanced program between taxpayer service and tax enforcement, stressed the need for an
aggressive enforcement program for those who understand their tax obligations but fail to
comply.
The Division’s primary mission is to serve the American public by investigating potential
criminal violations of the Internal Revenue Code and related financial crimes (e.g., money
laundering, corporate fraud, and terrorism financing) to promote compliance with the tax law
and confidence in the United States' tax administration system. The Division's
special agents’ investigative jurisdiction includes tax, money laundering, and Bank
Secrecy Act laws. The Division prepared a Strategic Assessment document for FYs 2007 to
2012 to supplement and implement the goals in the IRS’ Strategic Plan. The compliance,
business, and communication strategies of the Division include:
      •    Maintaining focus on legal source tax investigations, partnering with the IRS operating
           divisions to deploy a successful Fraud Referral Program.
      •    Working effectively with the Department of the Treasury, the Department of Justice, and
           other law enforcement partners to combat corporate fraud, terrorism, and the financial
           aspects of other criminal activity and to enhance Bank Secrecy Act compliance efforts.
      •    Increasing workforce productivity through improvements in recruitment, retention, and
           strengthened leadership.



1
    See Appendix IV for a glossary of terms.
                                                                                              Page 1
                              Trends in the Criminal Investigation Division’s
                              Enforcement Activities Showed Improvements;
                                 However, Some Goals Were Not Attained



    •   Increasing efficiency through improvements in business systems and the reduction of
        investigative cycle time.
Since FY 2004, 2 we have been presenting an annual statistical portrayal of the Division’s
enforcement activities. The objective of our first year’s audit was to provide statistical
information and trend analyses of the Division’s statistics since the issuance of the Webster
Report 3 in April 1999, which concluded that the Division had drifted away from its primary
mission of investigating criminal tax violations. Since then, our reports have focused on
year-to-year statistical comparisons, as well as looking at trends over a protracted period, to
provide perspective on the Division’s enforcement activities.
Our data analyses were performed in the Treasury Inspector General for Tax Administration’s
offices in Atlanta, Georgia, and Chicago, Illinois, during the period December 2009 through
April 2010. We used national reports from the Division’s management information system
during our review. Because of time and resource constraints, we did not audit the Division’s
systems to validate the accuracy and reliability of its information. Also, we did not assess
internal controls because it was not applicable within the context of our audit objective.
Otherwise, we conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective.
Detailed information on our objective, scope, and methodology is presented in Appendix I.
Major contributors to the report are listed in Appendix II. A glossary of terms is included in
Appendix IV. Detailed charts and tables referred to in the body of this report are included in
Appendix V.




2
 For more information, see Appendix VI, Report 1.
3
 Review of the Internal Revenue Service’s Criminal Investigation Division (Publication 3388; 4-1999), also known
as the Webster Report.
                                                                                                         Page 2
                              Trends in the Criminal Investigation Division’s
                              Enforcement Activities Showed Improvements;
                                 However, Some Goals Were Not Attained




                                     Results of Review

The Division’s Statistics Validate That Legal Source Tax and
Tax-Related Investigations Are a Priority
In FY 2009, we reported declining trends in several areas, including the number of legal source
tax investigation initiations and the number of tax-related initiations and case completions. The
Division’s Annual Business Plans have consistently described legal source tax investigations as a
top investigative priority, and we agree that these investigations are an important component of
all tax-related investigations.
The Division achieved its FY 2009 goal, spending 52.4 percent of its time on legal source tax
and 72 percent on total tax investigations, both at a 10-year high. 4 The Division’s goal for
FY 2009 was to maintain a minimum of 50 percent direct time on legal source tax investigations
and 68 percent on total tax investigations. In FY 2009, the number of legal source tax
investigation initiations increased by 13.3 percent and the number of tax-related initiations
increased by 14.4 percent. In addition, the percentage of all initiations that were legal source tax
and tax-related increased by 1.3 and 2.5 percentage points, respectively. 5 The increased
initiations and direct investigative time demonstrate the Division’s commitment to pursing legal
source tax and tax-related investigations as its top investigative priority.
In FY 2007, 6 we raised a concern that a FY 2008 budget initiative proposed to increase the direct
investigative time on narcotics-related cases to a range of 12 to 14 percent would affect the
Division’s ability to investigate legal source tax and tax-related crimes. The Division
subsequently established a targeted range of 11 to 13 percent. Last year, the Division reported
that narcotics-related direct investigative time was 12.3 percent. This year, the Division again
met its goal and reported an 11.5 percent rate. If the Division can maintain narcotics-related
direct investigative time at or below these current levels, then the Division should maintain or
see increased time applied towards its legal source tax and tax-related program areas.
The Division also continues to demonstrate efficiencies processing legal and illegal source
investigations by showing improvements in the number of elapsed days to complete an
investigation. The Division’s benchmark figure for legal and illegal source investigation
completions is 415 to 425 days. In FY 2009, the Division reported an average of approximately
401 elapsed days for legal and illegal source investigation completions, 3.4 percent below the


4
  See Appendix V, Figure 3.
5
  See Appendix V, Figures 5 and 6.
6
  See Appendix VI, Report 4.
                                                                                             Page 3
                              Trends in the Criminal Investigation Division’s
                              Enforcement Activities Showed Improvements;
                                 However, Some Goals Were Not Attained



benchmark range and only slightly above the FY 2008 average of 400 days. The average elapsed
days to recommend a legal or illegal source investigation for prosecution improved to 394 days,
from 407 days in FY 2008. However, the FY 2009 average of 413 days to discontinue a legal or
illegal source investigation exceeded the 386 day average in FY 2008 by 7 percent. According
to Division management, as the Division sought to reduce the pipeline inventory, 7 it reviewed
older investigations to determine whether or not the investigations were viable for prosecution.
For those that the Division deemed no longer worthy of prosecution, it discontinued the
investigation, thereby resulting in an increase in average elapsed days.
In FY 2009, the total number of investigations referred for prosecution declined by 7.7 percent
from FY 2008. Because legal source tax and
tax-related investigations comprise a subset of the
                                                          Legal source tax investigations are
total number referred for prosecution, these              a top investigative priority, but the
investigations also showed decreases. The number           number of investigations referred
of legal source tax investigations referred for              for prosecution has decreased
prosecution decreased 6.2 percent from FY 2008,                 6.2 percent from FY 2008.
and tax-related investigations referred for
prosecution decreased 1.5 percent during this same time. 8 The decreases in investigations
referred for prosecution may result in decreases in the number of subjects indicted for legal
source tax or tax-related crimes next fiscal year.
The number of subjects convicted of legal source tax crimes increased 2 percent from
FY 2008 and has increased 17.5 percent since FY 2004. Similarly, the number of subjects
sentenced for legal source tax crimes also increased 10.5 percent from FY 2008 and has
increased 40.6 percent since FY 2004. 9 The number of subjects sentenced for a tax-related crime
increased 9.5 percent from FY 2008. Additionally, the percentage of all sentences that were for
tax-related crimes was 49.9 percent, the third highest percentage in 10 years and a 2 percentage
point decrease from FY 2008. 10 The prosecution of legal source tax and tax-related
investigations is key to supporting the IRS’ overall compliance goals, enhancing voluntary
compliance with the tax laws, and promoting fairness and equity in the tax system.

The Division continues to emphasize publicizing its investigation results
The overall publicity rate for prosecutions in FY 2009 was 81.9 percent—an all-time high, and
3.9 percent higher than the targeted rate of 78 percent. The 87.9 percent publicity rate for legal
source tax investigations is slightly lower than the publicity rate in FY 2008, which was an
all-time high (88.5 percent). 11 In an effort to enhance voluntary compliance, the Division

7
  See Appendix VI, Report 7.
8
  See Appendix V, Figures 14 and 15.
9
  See Appendix V, Figures 17 and 19.
10
   See Appendix V, Figure 18.
11
   See Appendix V, Figure 21.
                                                                                             Page 4
                                Trends in the Criminal Investigation Division’s
                                Enforcement Activities Showed Improvements;
                                   However, Some Goals Were Not Attained



continued to emphasize publicizing the results of prosecutions resulting from its tax
investigations. This effort conveys to taxpayers that violations of the Internal Revenue Code and
related financial crimes are investigated and prosecuted.
Research suggests that higher levels of criminal sentences lead to greater tax compliance. The
average number of months a subject is incarcerated has increased since FY 2004. The
percentage increase in the number of months a subject is incarcerated for legal source tax
investigations rose 11.1 percent (from an average of 18 to 20 months) between FYs 2004 and
2009. The incarceration time increased 9.4 percent (from an average of 32 to 35 months) for
illegal source investigations and 23.6 percent (from an average of 72 to 89 months) for
narcotics-related investigations between FYs 2004 and 2009. From FY 2008 to FY 2009, the
incarceration rate decreased 7.9 percent for illegal source investigations but increased 8.5 percent
for narcotics-related investigations. 12

Efforts to Reduce Pipeline Inventory Caused Case Completions to
Continue to Decline
Last year, we expressed concerns that the Division would not meet its case completion goals due
to the increased emphasis it planned to give to reduce the pipeline inventory, along with the loss
of experienced special agents. 13 To address this condition, the Division lowered its completion
goal by 2.5 percent, from 4,000 to 3,900. However, the Division did not meet its goal to
complete 3,900 investigations, 14 and instead only completed 3,848 investigations during
FY 2009. According to Division management, increased resources devoted to the prosecution of
investigations in the pipeline inventory resulted in a significant decrease in FY 2008 subject
investigation initiations and a related decrease in FY 2009 completions.
Further, the Division experienced a higher cost per conviction ($327,328) than the planned rate
of $317,100. The Division uses this figure to measure its Program’s effectiveness and calculates
the amount by using its financial plan (i.e., the money allocated for its operations) divided by the
number of convictions. Division personnel attributed the increased cost to unexpected increases
in its operating budget and decreased convictions due to the Division’s emphasis to reduce
pipeline inventory.
The Division also uses the number of convictions and conviction rate as budgetary performance
measures. In response to the Calendar Year 2005 Program Assessment Rating Tool review, the
Division established ambitious, long-term goals for FY 2009 to:
     •   Increase the number of convictions by 25 percent, to 2,408 from 1,926 in FY 2002.


12
   See Appendix V, Figure 20.
13
   See Appendix VI, Report 6.
14
   The Division considers a completed case one it either discontinues or refers for prosecution.
                                                                                                   Page 5
                               Trends in the Criminal Investigation Division’s
                               Enforcement Activities Showed Improvements;
                                  However, Some Goals Were Not Attained



     •   Maintain or exceed a conviction rate of 92 percent.
The Division did not meet the long-term goal noted above or its revised conviction goal for
FY 2009 of 2,135, reporting that it received only 2,105 convictions. 15 In addition, the Division’s
conviction rate was 4.8 percent lower than the goal of 92 percent. The conviction rate is
calculated by comparing convictions to the total number of convictions, acquittals, and
dismissals. According to Division personnel, the increased number of dismissals during
FY 2009 (resulting from efforts to reduce pipeline inventory) caused the drop in the overall
conviction rate.
Despite not meeting some of its goals, the Division exceeded its FY 2009 goal of 4,000 by
initiating 4,121 subject investigations. The FY 2009 initiations represent a 9.9 percent increase
over the FY 2008 total of 3,749. 16 In addition, the number of subject investigations open in
inventory increased 7.7 percent over the FY 2008 total of 3,691 investigations.17 According to
the FY 2009 Business Performance Review (BPR) document, the Division plans to complete
3,900 investigations and obtain 2,135 convictions in FY 2010. Division management expects
that the 9.9 percent increase in initiations it experienced this fiscal year will provide for a future
increase in completions and resulting convictions. Since the Division reported that it takes, on
an average, less than 1 year (341 days) to refer a case for prosecution,18 we believe the
anticipated increase in initiations will likely result in an increase in completions and may allow
the Division to meets it completion goals next fiscal year.

The Division Works on Increasing Special Agent Staffing
Although total special agent staffing 19 has decreased 2.5 percent since FY 2004, it showed
improvement from last year—increasing 4.1 percent, from 2,617 to 2,725. 20 However, this
increase does not represent an increase in fully trained agents ready to work on investigations.
According to Division personnel, the gain of 108 positions represents the net between 312 newly
hired agents (undergoing extensive training) 21 and a loss of 204 experienced agents. The number
of field special agents decreased 2 percent from FY 2008 and 10.2 percent since FY 2004.
During FY 2010, the Division expects to proceed with attrition hiring and anticipates receiving
$5.1 million under an initiative to support the Commissioner’s emphasis on international tax

15
   See Appendix V, Figure 16.
16
   See Appendix V, Figure 4.
17
   See Appendix V, Figure 10.
18
   See Appendix V, Figure 13.
19
   Includes new recruits, part-time special agents, field and Headquarters Office managers and program analysts, and
Lead Development Center and Scheme Development Center special agents.
20
   See Appendix V, Figure 1.
21
   Division personnel indicated that the full benefit of new hires, in terms of production ability, is generally not
realized for 1 year. This is because academy training lasts for approximately 6 months and then new agents are
assigned an on-the-job training coach.
                                                                                                            Page 6
                                Trends in the Criminal Investigation Division’s
                                Enforcement Activities Showed Improvements;
                                   However, Some Goals Were Not Attained



schemes. The Chief, Criminal Investigation, recently announced that the international initiative
will require increased hiring and include a broader range of cases and sharply increased presence
in other countries. In addition, the Division made over 200 tentative special agent selections that
will be considered for class placement in FYs 2010 and 2011 (pending the necessary clearances.)
As the Division prepares to hire special agents and shift some of its existing resources to support
the international initiative, we are concerned about the impact this change might have on the
resources at local field offices and their ability to achieve Division goals and business plan
priorities.

Trends related to the number of investigations per special agent
The Division uses the average inventory of subject investigations per special agent22 and the
average total inventory per special agent to measure the quantity of work performed by special
agents. The average inventory calculation includes only open subject investigations, whereas the
total inventory calculation includes primary investigations, open subject investigations, and
pipeline subject investigation.
In FY 2009, the average inventory of subject investigations per special agent was 1.9, an
8.6 percent increase from 1.75 in FY 2008 and a 3.3 percent increase from 1.84 in FY 2004. The
total inventory per special agent increased significantly to 6.99, a 50.7 percent increase from
4.64 in FY 2008, and 41.5 percent increase from 4.94 in FY 2004. 23 This increase occurred as a
result of the IRS’ March 2009 Voluntary Disclosure Program to enforce abusive tax shelters and
offshore schemes. All Voluntary Disclosure cases were initially routed to the Division for
processing. The IRS extended the Voluntary Disclosure Program to October 15, 2009, and,
according to the FY 2009 BPR, the Division expected a significant volume of receipts for the
first quarter FY 2010. We expect this will cause the total inventory per special agent figure
reported next year to be near the same rate as this year.

Emphasis on Referrals From the Operating Divisions Would Increase
Investigations Initiated From Internal Sources
The Division initiates investigations from many different sources within and outside of the IRS.
The Division’s primary sources from within the IRS include fraud referrals from the operating
divisions and investigations from the Questionable Refund and Return Preparer Programs. The
percentage of cases originating from within the IRS has remained relatively consistent since
FY 2003, ranging from a low of 30.1 percent in FY 2004 to a high of 36.2 percent in FY 2005. 24
For example, the percentage of subject investigations initiated that originated from within the
IRS increased slightly to 33 percent in FY 2009 compared to 32.3 percent in FY 2008.

22
   The Division only considers the special agents that were actively working on investigations in these calculations.
23
   See Appendix V, Figure 9.
24
   See Appendix V, Figure 7.
                                                                                                              Page 7
                                 Trends in the Criminal Investigation Division’s
                                 Enforcement Activities Showed Improvements;
                                    However, Some Goals Were Not Attained



Sources of investigations from outside the IRS include the           The Division is working
United States Attorneys’ Offices and other Government               closely with IRS operating
agencies, both Federal and State. In addition, the Division         divisions to strengthen its
initiates investigations based on information received from          Fraud Referral Program.
public sources, including the media and informants. During
FY 2009, 54.6 percent of the 4,121 subject investigations initiated came from the United States
Attorneys’ Office or other Government agencies. The percentage initiated from these sources in
FY 2009 was a slight decrease from the 54.9 percent in FY 2008. The percentage of the
investigations initiated from a public source slightly decreased to 12.4 percent of total
investigations initiated from 12.8 percent in FY 2008.

Trends relating to fraud referrals continue to decline
The number of fraud referrals received by the Division decreased for a second consecutive year.
The Division reported receiving 505 fraud referrals in FY 2009, a 13.4 percent decrease from the
583 received in FY 2008, and a 19.2 percent decrease from the FY 2005 high of 625. 25 Since
fraud referrals remain a viable and important source of legal source tax investigations, we are
concerned that the number of fraud referrals received has trended downward since FY 2005.
During a February 2010 meeting, the Chief, Criminal Investigation, advised that this trend may
change in the future since the operating divisions now have a performance commitment relating
to fraud referrals.
In addition, the Division’s goal is for field offices to ensure the timely evaluation of fraud within
30 workdays. We are concerned whether the Division will be able to achieve this goal because
results showed less than half of the fraud referrals evaluated during FY 2009 were evaluated in
45 days or less. Further, the average elapsed days to act upon a referral increased from 68 days
in FY 2008 to 72 days in FY 2009.
The Division’s FY 2010 Annual Business Plan continues the commitment to focus on the
delivery of high-impact, high-quality investigations by working closely with the IRS operating
divisions to develop and investigate significant tax cases. This will help the IRS’ overall efforts
to reduce the tax gap (the difference between taxes paid and taxes owed). The Division and the
operating divisions need to continue to emphasize the importance of these types of investigations
as they relate to tax administration and the IRS’ efforts to improve voluntary compliance.




25
     See Appendix V, Figure 8.




                                                                                              Page 8
                                  Trends in the Criminal Investigation Division’s
                                  Enforcement Activities Showed Improvements;
                                     However, Some Goals Were Not Attained



                                                                                     Appendix I

            Detailed Objective, Scope, and Methodology

The overall objective of this review was to provide a statistical portrayal with trend analyses of
the Criminal Investigation Division’s enforcement activities for FYs 2000 through 2009.
To accomplish our objective, we relied on information accumulated by the IRS and the Division
in established reports and from the Criminal Investigation Management Information System
(CIMIS). We did not verify the accuracy of the information. The major issues we focused on
included:
       •   Special Agent 1 Staffing.
       •   Investigations:
           a. Initiated.
           b. Open.
           c. In the Pipeline.
           d. Closed.
           e. Referred for Prosecution.
       •   Subsequent Legal Actions.
       •   Compliance Strategy Programs.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We did not assess internal
controls because doing so was not applicable within the context of our objective.




1
    See Appendix IV for a glossary of terms used in this report.
                                                                                             Page 9
                         Trends in the Criminal Investigation Division’s
                         Enforcement Activities Showed Improvements;
                            However, Some Goals Were Not Attained



                                                                             Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Marybeth H. Schumann, Director
Frank W. Jones, Director
Diana M. Tengesdal, Audit Manager
Gwendolyn M. Green, Lead Auditor
Lynn M. Ross, Senior Auditor




                                                                                      Page 10
                         Trends in the Criminal Investigation Division’s
                         Enforcement Activities Showed Improvements;
                            However, Some Goals Were Not Attained



                                                                             Appendix III

                          Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Director, Operations Policy and Support, Criminal Investigation SE:CI:OPS
Director, Strategy, Criminal Investigation SE:CL:S
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Director, Planning and Strategy, Criminal Investigation SE:CL:S:PS




                                                                                    Page 11
                          Trends in the Criminal Investigation Division’s
                          Enforcement Activities Showed Improvements;
                             However, Some Goals Were Not Attained



                                                                                 Appendix IV

                                Glossary of Terms

Business Performance Review – A quarterly review by the Criminal Investigation Division to
report on its performance measures, business results, employee and customer satisfaction, and
other items of importance.
Compliance Strategy Program – The Criminal Investigation Division’s organizational strategy
comprised of three interdependent program areas: Legal Source Tax Crimes, Illegal Source
Financial Crimes, and Narcotics-Related Financial Crimes.
Criminal Investigation Management Information System – A database that tracks the status
and progress of criminal investigations and the time expended by special agents.
Cycle Time – Elapsed calendar days on completed investigations.
Direct Investigative Time – Time spent by special agents conducting investigations and other
law enforcement activities.
Discontinued Investigation – A subject investigation that resulted in a determination that there
was no prosecution potential.
Elapsed Days – The number of days between the initiation of a subject investigation to another
date, such as the date discontinued or date referred for prosecution.
Field Special Agent – A special agent in 1 of the Division’s 26 field offices.
Fraud Referral Program – A program designed as a partnership between the Criminal
Investigation Division and the IRS operating divisions to promote fraud awareness and assist
with fraud training.
Gross Tax Gap – The difference between the amount of tax that taxpayers should pay under the
tax law and the amount they actually pay on time.
Illegal Source Financial Crimes – Crimes involving illegally earned income, including crimes
involving money laundering; 18 United States Code (U.S.C.) Sections (§§) 1956 and 1957;
sections of U.S.C. Title 31, Money and Finance; and U.S.C. Title 26 violations investigated in
conjunction with other agencies.
Internal Revenue Code – The codified collection of United States laws on income, estate and
gift, employment, and excise taxes, plus administrative and procedural provisions.




                                                                                         Page 12
                           Trends in the Criminal Investigation Division’s
                           Enforcement Activities Showed Improvements;
                              However, Some Goals Were Not Attained



Inventory per Special Agent – The number of open subject investigations divided by the
number of field special agents whose salary grade level is 13 or below and who have various
position descriptions, including those of coordinator and reviewer.
IRS Data Book – A publication that provides information on activities conducted by the IRS
such as taxes collected, enforcement, taxpayer assistance, budget, workforce, and other selected
activities.
IRS Oversight Board – A nine-member independent body charged to oversee the IRS in its
administration, management, conduct, direction, and supervision of the execution and application
of the Internal Revenue laws. The IRS Oversight Board provides experience, independence, and
stability to the IRS so it may move forward in a cogent, focused direction.
Legal Source Tax Crimes – Crimes involving legal industries and occupations and legally
earned income.
Narcotics-Related Financial Crimes – Crimes involving tax and money laundering related to
narcotics and drug trafficking.
Pipeline Inventory – A subject investigation that has been recommended for prosecution and
the subject has not been convicted or acquitted, or the investigation has not been dismissed. It
excludes investigations where the subject became a fugitive after indictment.
Primary Investigation – An evaluation of an allegation that an individual or entity is in
noncompliance with the Internal Revenue laws and related financial crimes.
Program Assessment Rating Tool – A tool developed to assess and improve program
performance so that the Federal Government can achieve better results. Specifically, the review
helps identify a program’s strengths and weaknesses to inform funding and management
decisions aimed at making the program more effective.
Questionable Refund Program – An IRS nationwide, multifunctional program designed to
identify fraudulent returns, stop the payment of fraudulent refunds, and refer identified
fraudulent refund schemes to the Criminal Investigation Division’s field offices.
Referred for Prosecution – A subject investigation that resulted in the determination of
prosecution potential referred to the Department of Justice or to a United States Attorney’s
Office.
Return Preparer Program – A program that pursues unscrupulous return preparers who
knowingly claim excessive deductions and exemptions on returns prepared for clients. The
clients may or may not have knowledge of the false claims.
Special Agent – A Criminal Investigation Division law enforcement employee who investigates
potential criminal violations of the Internal Revenue laws and related financial crimes.


                                                                                            Page 13
                           Trends in the Criminal Investigation Division’s
                           Enforcement Activities Showed Improvements;
                              However, Some Goals Were Not Attained



Subject Investigation – An investigation of an individual or entity alleged to be in
noncompliance with the laws enforced by the IRS and having prosecution potential.
Subject Seizure Investigation – An investigation to locate and seize assets that are subject to
seizure or forfeiture under various U.S.C. titles and sections, such as 26 U.S.C. § 7302 or
18 U.S.C. §§ 981, 982, or 984.
Tax-Related Violation – A violation involving Title 26, Title 33 sections, or one of the
following Title 18 sections: § 286, § 287, § 371, or § 514 associated with a Title 26 violation, or
§ 371 associated with a Title 26 and a Title 31 violation.
Total Tax – The percentage of direct investigative time devoted to legal source and illegal
source tax cases. It includes time spent on legal source general investigations that are a source of
tax subject investigations.
Voluntary Disclosure Case – The case that results from the IRS’ voluntary disclosure program
which provides a way for taxpayers with previously undisclosed income to contact the IRS and
resolve their tax matters. As a part of the voluntary disclosure, taxpayers should provide the IRS
with truthful, timely, and complete information.




                                                                                            Page 14
                                     Trends in the Criminal Investigation Division’s
                                     Enforcement Activities Showed Improvements;
                                        However, Some Goals Were Not Attained



                                                                                                                        Appendix V

             Detailed Charts of Statistical Information

Figure 1 – Special Agent and Field Special Agent Staffing at the End of Each Fiscal Year ...........Page 17
Figure 2 – Special Agent Direct Investigative Time Expended Each Fiscal Year ...........................Page 17
Figure 3 – Percentage of Direct Investigative Time Spent on Legal Source Tax and Total
           Tax Investigations Each Fiscal Year...............................................................................Page 18
Figure 4 – Number of Subject Investigations Initiated and the Number Initiated per Field
           Agent Each Fiscal Year...................................................................................................Page 18
Figure 5 – Number of Subject Investigations Initiated Each Fiscal Year for Tax-Related or
           Nontax-Related Violations and the Percentage That Is Tax-Related..............................Page 19
Figure 6 – Number of Subject Investigations Initiated Each Fiscal Year by Compliance
           Strategy Program and the Percentage That Is Legal Source Tax Crimes........................Page 19
Figure 7 – Number of Subject Investigations Initiated Each Fiscal Year by Source of the
           Allegation or Information ...............................................................................................Page 20
Figure 8 – Number of Fraud Referrals Received Each Fiscal Year and the Percentage
           Accepted .........................................................................................................................Page 20
Figure 9 – Number of Open Subject Investigations and the Total of All Investigations at the
           End of Each Fiscal Year and the Average Number of Each per Special Agent .............Page 21
Figure 10 – Number of All Types of Investigations Open at the End of Each Fiscal Year ...............Page 21
Figure 11 – Number of Open Subject Investigations Each Fiscal Year for Tax-Related or
            Nontax-Related Violations and the Percentage That Is Tax-Related..............................Page 22
Figure 12 – Number of Open Subject Investigations Each Fiscal Year by Compliance
            Strategy Program and the Percentage That Is Legal Source Tax Crimes........................Page 22
Figure 13 – Average Elapsed Days of Subject Investigations Discontinued and Referred
            for Prosecution Each Fiscal Year ....................................................................................Page 23
Figure 14 – Number of Subject Investigations Referred for Prosecution Each Fiscal Year
            for Tax-Related or Nontax-Related Violations and the Percentage That Is
            Tax-Related .....................................................................................................................Page 23
Figure 15 – Number of Subject Investigations Referred for Prosecution Each Fiscal Year
            by Compliance Strategy Program and the Percentage That Is Legal Source
            Tax Crimes ......................................................................................................................Page 24
Figure 16 – Number of Subjects Convicted and Sentenced for a Crime Each Fiscal Year................Page 24

                                                                                                                                     Page 15
                                  Trends in the Criminal Investigation Division’s
                                  Enforcement Activities Showed Improvements;
                                     However, Some Goals Were Not Attained


Figure 17 – Number of Subjects Convicted of a Crime Each Fiscal Year by Compliance
            Strategy Program and the Percentage That Is Legal Source Tax Crimes........................Page 25
Figure 18 – Number of Subjects Sentenced for a Crime Each Fiscal Year for Tax-Related
            or Nontax-Related Violations and the Percentage That Is Tax-Related .........................Page 25
Figure 19 – Number of Subjects Sentenced for a Crime Each Fiscal Year by Compliance
            Strategy Program and the Percentage That Is Legal Source Tax Crimes........................Page 26
Figure 20 – Average Number of Months a Subject Is Incarcerated Each Fiscal Year by
            Compliance Strategy Program ........................................................................................Page 26
Figure 21 – Percentage of Investigations That Received Publicity Each Fiscal Year by
            Compliance Strategy Program ........................................................................................Page 27




                                                                                                                         Page 16
                                  Trends in the Criminal Investigation Division’s
                                  Enforcement Activities Showed Improvements;
                                     However, Some Goals Were Not Attained



Figure 1: Special Agent and Field Special Agent Staffing at the End of Each Fiscal Year.

    3,000



                                  2,902
    2,800
                       2,822                                             2,823
                                             2,800       2,796                       2,804
             2,734                                                                                                  2,725
                                                                                                2,684
    2,600
                                  2,610                                                                   2,617

                                             2,543
             2,513                                                                   2,511
                       2,477                             2,490
    2,400
                                                                         2,416                  2,435
                                                                                                            2,271   2,235


    2,200
             FY 00     FY 01      FY 02      FY 03      FY 04            FY 05       FY 06      FY 07     FY 08     FY 09


                                            Special Agents           Field Special Agents

    Source: The Division’s analysis of staffing information.

Figure 2: Special Agent Direct Investigative Time Expended Each Fiscal Year. 1


     65%

     64%

     63%

     62%

     61%

     60%
               60.9%




                          60.2%




                                    63.3%




                                               63.7%




                                                             62.5%




                                                                           63.3%




                                                                                        63.2%




                                                                                                  65.0%




                                                                                                            64.1%




                                                                                                                      64.4%




     59%
             FY 00      FY 01      FY 02     FY 03       FY 04           FY 05       FY 06      FY 07     FY 08     FY 09

    Source: The Division’s analysis of direct investigative time information for FYs 2000 through 2002 and CIMIS
    Report INV001 (Criminal Investigation Summary Statistics) for FYs 2003 through 2009.



1
  In FY 2006, the Division revised its calculation formula for direct investigative time on tax and tax-related
investigations; therefore, the numbers reflected in this figure may not agree with prior reports.
                                                                                                                      Page 17
                                                       Trends in the Criminal Investigation Division’s
                                                       Enforcement Activities Showed Improvements;
                                                          However, Some Goals Were Not Attained



Figure 3: Percentage of Direct Investigative Time Spent on Legal Source Tax and Total
Tax Investigations Each Fiscal Year.

  80%




                                                                                                                                                                                                                          72.0%
  70%

  60%




                                                                                                                                               70.0%




                                                                                                                                                                                                 70.8%
                                                                                                                                                                        69.0%
                                                                                    64.1%




                                                                                                                        66.5%
                                                                                                      64.7%
                                                                  59.4%




  50%
                       56.2%




                                               57.2%




  40%




                                                                                                                                                                                                                  52.4%
                                                                                                                                                                                         51.2%
                                                                                                                                                                50.4%
                                                                                                                                       48.2%
                                                                                                                44.8%
                                                                                              43.2%
                                                                           42.4%




  30%
            41.8%




                                                       39.9%
                               39.1%




  20%

  10%
            FY 00              FY 01                   FY 02               FY 03              FY 04              FY 05                  FY 06                   FY 07                    FY 08                    FY 09

                                                                                            Legal Source                          Total Tax


Source: The Division’s BPR reports for FYs 2000 through 2006 and CIMIS INV001 (Criminal Investigation
Summary Statistics) for FYs 2007 through 2009 legal source data. The Total Tax computation for
FYs 2000 through 2003 was from the Division’s analysis of the CIMIS. The Total Tax computation for
FYs 2004 through 2009 was from the Division’s BPR reports for FYs 2008 and 2009.

Figure 4: Number of Subject Investigations Initiated and the Number Initiated per Field
Agent Each Fiscal Year.

  4,500                                                                                                                                                                                                                   3.00
                                                                                                               4,269




                                                                                                                                                        4,211




  4,000
                                                                                                                                                                                                          4,121
                                                                            4,001




                                                                                              3,917
                                                          3,906




                                                                                                                                    3,907




                                                                                                                                                                                 3,749




  3,500                                                                                                                                                                                                                   2.50
                    3,372




                                       3,284




  3,000
                                                                                                                                                                                                                          2.00
  2,500
                                                                                                                  93                                       91                                                97
  2,000                                                                                                        1.                                       1.                                                1.
                                                                               74                74                                                                                 77                                    1.50
                                                             65             1.                1.                                      70                                         1.
  1,500                                                   1.                                                                       1.
                       51                 48
                    1.                 1.
  1,000                                                                                                                                                                                                                   1.00
   500

        0                                                                                                                                                                                                                 0.50
               FY 00            FY 01                  FY 02              FY 03             FY 04             FY 05               FY 06                FY 07                    FY 08                    FY 09

                                                                   Subject Initiations                                          Initiations per Field Agent


Source: The IRS Data Books (Publication 55B) for FYs 2000 through 2005, CIMIS Report INV002 (Summary by
Program Area) for FYs 2006 through 2009, and our analysis based on the number of field special agents provided
by the Division.

                                                                                                                                                                                                                      Page 18
                                                        Trends in the Criminal Investigation Division’s
                                                        Enforcement Activities Showed Improvements;
                                                           However, Some Goals Were Not Attained



Figure 5: Number of Subject Investigations Initiated Each Fiscal Year for Tax-Related or
Nontax-Related Violations and the Percentage That Is Tax-Related.

  2,800                                                                                                                                                                                                     100%




                                                                                                                2,631




                                                                                                                                                                                          2,612
  2,400




                                                                                                                                                   2,516
                                                        2,468



                                                                         2,452




                                                                                                                                 2,445
                                                                                                                                                                                                            90%




                                                                                                                                                                        2,283
                                                                                           2,164
  2,000
                                1,854




                                                                                                                                                                                                            80%
            1,786




                                                                                                     1,753
  1,600




                                                                                                                                                           1,695
                                                                                                                        1,638
                    1,586




                                                                                 1,549




                                                                                                                                                                                                  1,509
                                                                                                                                                                                1,466
                                                                                                                                         1,462
                                                                1,438
                                            1,430




  1,200                                                                                                                                                                                                     70%
    800
                                56.5%                                                      55.2%                                                                                          63.4%             60%
                                                        63.2%                                                                    62.6%
    400     53.0%                                                        61.3%                                  61.6%                                                   60.9%
                                                                                                                                                  59.7%

      0                                                                                                                                                                                                     50%
            FY 00               FY 01                   FY 02            FY 03             FY 04                FY 05            FY 06            FY 07                 FY 08             FY 09

                                                       Tax-Related                                 Nontax-Related                                  % Tax-Related


Source: The Division’s BPR reports for FYs 2000 through 2005 and CIMIS Report INV002 (Summary by Program
Area) for FYs 2006 through 2009.

Figure 6: Number of Subject Investigations Initiated Each Fiscal Year by Compliance
Strategy Program and the Percentage That Is Legal Source Tax Crimes.

  1,800                                                                                                                                                                                     1,734           100%
                                                                                                                                                   1,731
                                                                                                                1,693




                                                                                                                                   1,686




  1,600
                                                                                                                                                  1,664




                                                                                                                                                                                                            90%
                                                                                                                                                                                          1,634
                                                                                                               1,632
                                                        1,554




                                                                                             1,537
                                                                         1,535




                                                                                                                                                                         1,531
                                                                                                                                1,524
                                                                        1,506
                                                      1,485




  1,400
                                                                                                                                                                       1,441




                                                                                                                                                                                                            80%
                                                                                         1,370
                                    1,313




  1,200
                1,254




                                                                                                                                                                                                            70%
            1,109




  1,000
                            1,020
          1,009




                                                                                                       1,010




                                                                                                                                                                                                            60%
                                                                                   960
                                             951




                                                                                                                          944




   800
                                                                 867




                                                                                                                                                              816




                                                                                                                                                                                    777




                                                                                                                                                                                                            50%
                                                                                                                                                                                                      753
                                                                                                                                            697




   600
                                                                                                                                                                                                            40%
   400
                                                                                                                                                                        40.8%              42.1%
                                                       39.8%             37.6%                                  39.7%            39.0%             39.5%
   200     37.2%                                                                                                                                                                                            30%
                                                                                          35.0%
                              31.1%
     0                                                                                                                                                                                                      20%
           FY 00               FY 01                    FY 02            FY 03             FY 04                FY 05            FY 06             FY 07                 FY 08             FY 09

                                                    Legal Source                  Illegal Source                        Narcotics-Related                          Total Initiations


Source: The IRS Data Books (Publication 55B) for FYs 2000 through 2005 and the CIMIS Report INV002
(Summary by Program Area) for FYs 2006 through 2009.


                                                                                                                                                                                                          Page 19
                                 Trends in the Criminal Investigation Division’s
                                 Enforcement Activities Showed Improvements;
                                    However, Some Goals Were Not Attained



Figure 7: Number of Subject Investigations Initiated Each Fiscal Year by Source of the
Allegation or Information. IRS sources include fraud referrals from the compliance divisions,
investigations developed by the Fraud Detection Centers, and currency transactions.

  2,500

                                                                                                                                           2,249
  2,000       2,144
                        2,064                   2,191       2,286        2,267               2,085         2,310            2,060
                                  2,016

  1,500
                                                                              1,547
                                 1,334                                                       1,374           1,367                         1,361
                                               1,266
  1,000
                                                             1,179                                                          1,211
              812      809
   500
                                   556              544                                                      534                            511
              416       411                                      452          455            448                             478

        0
              FY 00    FY 01      FY 02        FY 03         FY 04        FY 05              FY06            FY07           FY08           FY09

                                  USAO & Other Govt Agencies            Public & Other               IRS


Source: Our analysis of the CIMIS and CIMIS Report 11 (Program Summary Analysis) for FYs 2000 through
2005 and the Division’s analysis of the CIMIS for FYs 2006 through 2009. USAO = United States Attorney’s
Offices.

Figure 8: Number of Fraud Referrals Received Each Fiscal Year and the Percentage
Accepted.

  700
                                                                                                                                                  120%
                                                                        625




  600
                                                                                                       612
                                                                                       603




                                                                                                                                                  100%
                                                                                                                      583
                                              559




                                                           530
                                 526




  500
                                                                                                                                     505
                       486




                                                                                                                                                  80%
              436




  400

                                                                       68.8%          71.5%
                                                                                                      68.6%          67.0%          66.8%         60%
  300                           62.9%       61.2%
                                                          58.0%
                      53.8%
            50.8%                                                                                                                                 40%
  200


  100                                                                                                                                             20%


    0                                                                                                                                             0%
            FY 00     FY 01     FY 02       FY 03         FY 04        FY 05          FY 06           FY 07          FY 08          FY 09

                                          Number Received              Percentage Accepted


Source: The Division’s BPR reports for FYs 2000 through 2005 and CIMIS Report INV001 (Criminal
Investigation Summary Statistics) for FYs 2006 through 2009.


                                                                                                                                            Page 20
                                                         Trends in the Criminal Investigation Division’s
                                                         Enforcement Activities Showed Improvements;
                                                            However, Some Goals Were Not Attained



Figure 9: Number of Open Subject Investigations and the Total of All Investigations at the
End of Each Fiscal Year and the Average Number of Each per Special Agent. 2
      16,000                                                                                                                                                                                                               8.00




                                                                                                                                                                                                             99
                                                                                                                                                                                                          6.
      14,000
                           41
                        5.




      12,000                                                                                                                                                                                                               6.00




                                                                                                                        19
                                                                                  82




                                                                                                      94




                                                                                                                                            76




                                                                                                                                                                 72
                                                                46




                                                                                                                     5.
                                          75




                                                                                                                                                                                          64
                                                                               4.




                                                                                                   4.




                                                                                                                                         4.




                                                                                                                                                              4.
                                                             4.
                                       4.




                                                                                                                                                                                       4.
      10,000

       8,000                                                                                                                                                                                                               4.00

       6,000
                                                                                    00




                                                                                                                          94




                                                                                                                                                                                                             90
                                                                86




                                                                                                       84




                                                                                                                                                                 81
                                                                                                                                             76




                                                                                                                                                                                          75
                      68




                                                                                 2.
                                           66




                                                                                                                       1.




                                                                                                                                                                                                          1.
                                                             1.




                                                                                                    1.




                                                                                                                                                              1.
                                                                                                                                          1.




                                                                                                                                                                                       1.
                   1.




                                                                              4,615
                                        1.




                                                           4,395




       4,000                                                                                                                                                                                                               2.00




                                                                                                                     4,283




                                                                                                                                        4,034




                                                                                                                                                           3,981




                                                                                                                                                                                                        3,976
                3,749




                                     3,702




                                                                                                                                                                                    3,691
                                                                                                  4,136
                            12,063




                                                10,572




                                                                     10,534




                                                                                         11,101




                                                                                                            11,118




                                                                                                                               11,467




                                                                                                                                                  10,902




                                                                                                                                                                      10,374




                                                                                                                                                                                                                  14,612
       2,000




                                                                                                                                                                                               9,822
           0                                                                                                                                                                                                               0.00
                  FY 00                FY 01                FY 02               FY 03              FY 04              FY 05              FY 06               FY 07                    FY 08              FY 09


                           Open Inventory                            Total Inventory                      Avg Subject Inventory per Agent                                      Avg Total Inventory per Agent


Source: The Division’s analysis of the CIMIS.
Figure 10: Number of All Types of Investigations Open at the End of Each Fiscal Year.2

       16,000

       14,000
                                                                                                                                                                                                                3,915
       12,000

       10,000       3,484
                                                                   2,733              3,072               3,633              3,846
                                             2,992                                                                                              3,943                                                           3,976
        8,000                                                                                                                                                      4,060
                                                                                                                                                                                            4,118
                    3,749
        6,000                                3,702                 4,395              4,615               4,136              4,283
                                                                                                                                                4,034
        4,000                                                                                                                                                      3,981
                                                                                                                                                                                            3,691
                                                                                                                                                                                                                6,721
        2,000       4,830
                                             3,878                 3,406              3,414               3,349              3,338              2,925              2,333                    2,013
            0
                    FY 00                FY 01                     FY 02              FY 03               FY 04              FY 05              FY 06              FY 07                    FY 08               FY 09


                                                          Primary Investigations                             Open Inventory                       Pipeline Inventory


    Source: The Division’s analysis of the CIMIS. The Division’s FY 2009 primary investigation inventory includes
    4,224 cases as a result of the IRS’ voluntary disclosure program.


2
  During FY 2006, the Division revised its formula for determining total inventory. The new formula does not
include subject seizure investigation information or open primary investigations that had a corresponding subject
investigation. As a result, data reported in Figures 9 and 10 for prior FYs changed and may not agree with our prior
reports. Total inventory includes primary investigations not yet elevated to subject investigations, open subject
investigations currently being worked in field offices, and subject investigations referred for prosecution (pipeline).
                                                                                                                                                                                                       Page 21
                                               Trends in the Criminal Investigation Division’s
                                               Enforcement Activities Showed Improvements;
                                                  However, Some Goals Were Not Attained



Figure 11: Number of Open Subject Investigations Each Fiscal Year for Tax-Related or
Nontax-Related Violations and the Percentage That Is Tax-Related.

  4,000                                                                                                                                                                             100%
  3,500


                                                                 3,458
                                                                                                                                                                                    90%
                                              3,337




                                                                                                  3,258
  3,000




                                                                                  3,140




                                                                                                                   3,134




                                                                                                                                                                    3,102
                                                                                                                                   2,936



                                                                                                                                                    2,864
                             2,729




  2,500
           2,629




                                                                                                                                                                                    80%
  2,000
                                                                                                                   77.7%                            77.6%           78.0%
                                              75.9%              74.9%            75.9%           76.1%                                                                             70%
  1,500                      73.7%                                                                                                 73.8%
           70.1%
  1,000
                                                                          1,157
                    1,120




                                                       1,058




                                                                                                                                            1,045
                                                                                                           1,025
                                                                                           996                                                                                      60%
                                      973




                                                                                                                            900




                                                                                                                                                                            874
                                                                                                                                                            827
   500
     0                                                                                                                                                                              50%
            FY 00            FY 01            FY 02              FY 03             FY 04          FY 05            FY 06           FY 07            FY 08           FY 09

                                                 Tax-Related                          Nontax-Related                         % Tax-Related

Source: The Division’s BPR reports for FYs 2000 through 2005 and the CIMIS Report INV002 (Summary by
Program Area) for FYs 2006 through 2009.

Figure 12: Number of Open Subject Investigations Each Fiscal Year by Compliance
Strategy Program and the Percentage That Is Legal Source Tax Crimes.

  2,500                                                                                                                                                                              65%
                                                                2,170




                                                                                                  2,121




  2,000                                                                                                                                                             2,119            60%
                                             2,102




                                                                                  2,050




                                                                                                                   2,006



                                                                                                                                   1,990



                                                                                                                                                    1,973
          1,839



                            1,681




  1,500                                                                                                                                                                              55%

                                                                                                                                                      53.5%            53.3%
  1,000                                                                                                                                                                              50%
                                                                                    49.6%           49.5%            49.7%           50.0%
            49.1%               45.4%
                                               47.8%
   500                                                            47.0%                                                                                                              45%
                   1,111



                                     1,402



                                                      1,695



                                                                         1,783



                                                                                          1,544



                                                                                                          1,688



                                                                                                                           1,664



                                                                                                                                           1,515



                                                                                                                                                            1,317



                                                                                                                                                                            1,396
                   799



                                     619



                                                      598



                                                                         662



                                                                                          542



                                                                                                          474



                                                                                                                           364



                                                                                                                                           476



                                                                                                                                                            401



                                                                                                                                                                            461




      0                                                                                                                                                                              40%
            FY 00             FY 01            FY 02              FY 03             FY 04           FY 05            FY 06           FY 07             FY 08           FY 09
                                                               Legal Source                                                 Illegal Source
                                                               Narcotics-Related                                            % Legal Source

Source: The Division’s BPR reports for FYs 2000 through 2005 and the CIMIS Report INV002 (Summary by
Program Area) for FYs 2006 through 2009.




                                                                                                                                                                                    Page 22
                                                 Trends in the Criminal Investigation Division’s
                                                 Enforcement Activities Showed Improvements;
                                                    However, Some Goals Were Not Attained



    Figure 13: Average Elapsed Days of Subject Investigations Discontinued and Referred for
    Prosecution Each Fiscal Year. 3

     600

     550
                                505.7
               483.2                              492.1
     500                                                                                461.4
                                                                    426.8                                436.8            424.5
     450
                                                                                                                                                 412.7                                       412.9
                                                                                                                                                                         381.7
     400                                          413.2
                                                                    383.8                                386.6            383.8
     350                                                                                367.8
                                362.4                                                                                                            361.2
                                                                                                                                                                         341.2               341.0
     300       315.7

     250

     200
               FY 00            FY 01            FY 02             FY 03                FY 04            FY 05           FY 06                 FY 07                     FY 08               FY 09

                                                                Discontinued Cases                       Referred Cases


    Source: The Division’s analysis of the CIMIS for FYs 2000 through 2007, the Division’s BPR report for
    FY 2008, and the CIMIS Report INV003 (Cycle Time Summary) for FY 2009.

Figure 14: Number of Subject Investigations Referred for Prosecution Each Fiscal Year
for Tax-Related or Nontax-Related Violations and the Percentage That Is Tax-Related.

      1,800                                                                                                                                                                                    100%
      1,600
                                                                                                                                                                                               90%
                                                                                         1,573




                                                                                                                                                                 1,488



      1,400
                                                                                1,464




                                                                                                 1,454




                                                                                                                                     1,430
                                                                                                         1,405




                                                                                                                                             1,407
                        1,389




                                                                                                                         1,369
                                                                1,359




                                                                                                                                                                                               80%
                                                                                                                 1,351
                                        1,326




                                                                                                                                                         1,297




                                                                                                                                                                                     1,292
                                                                                                                                                                             1,278

      1,200
                                                                        1,182
                                                        1,104




      1,000                                                                                                                                                                                    70%
                1,045




                                                1,029
                                1,009




       800                                                                                                                                                                                     60%
       600
                                                                                                                                                                                               50%
                                                                53.5%
       400                                                                                       50.9%           49.7%               50.4%                                       49.7%
                                                48.2%                           48.2%                                                                    46.6%                                 40%
       200      42.9%           43.2%
           0                                                                                                                                                                                   30%
                FY 00           FY 01           FY 02           FY 03           FY 04            FY 05           FY 06               FY 07                FY 08                  FY 09

                                                         Tax-Related                     Nontax-Related                          % Tax-Related


    Source: The Division’s BPR reports for FYs 2000 through 2005 and the CIMIS Report INV002 (Summary by
    Program Area) for FYs 2006 through 2009.

3
 The Division revised its calculation formula in FY 2006 to include discontinued investigations that had been closed
because of lack of resources. As a result, the numbers reported in Figure 13 for prior fiscal years may have changed
and may not agree with our prior reports.
                                                                                                                                                                                              Page 23
                                                   Trends in the Criminal Investigation Division’s
                                                   Enforcement Activities Showed Improvements;
                                                      However, Some Goals Were Not Attained



Figure 15: Number of Subject Investigations Referred for Prosecution Each Fiscal Year by
Compliance Strategy Program and the Percentage That Is Legal Source Tax Crimes.
 1,400                                                                                                                                                                                                          100%




                                                                                                                                                        1,313
                                                                                                                                                                                                                90%




                                                                                          1,289




                                                                                                                                    1,265
 1,200




                                                                                                                                                                            1,204




                                                                                                                                                                                                  1,200
                                                                                                              1,141
                                                                                                                                                                                                                80%
 1,000
                                                                      1,034
                                                                                                                                                                                                                70%




                                                                                                                                                  976
                                 953




                                                                                                        951
                     926




                                                                                                                                                                      893
                                                                                    869
                                                    864




                                                                                                  879
  800




                                                                                                                                                                                            838
                                                                                                                              834
                                                                                                                                                                                                                60%
                                       847




                                                                823
               799




                                                                                                                      767
         709




                                                                                                                                                                                    688
                                                                              684

                                                                                                                                                                                                                50%
                                                          659




  600




                                                                                                                                            621
                                             610




                                                                                                                                                                548
                           535




                                                                                                                                                                                                          532
                                                                                                                                                                                                                40%
  400
                                                                                                                                                                                                                30%
                                                                      32.4%                                   33.3%                                 34.4%                                     32.6%
                                                                                                                                    30.7%                               32.1%
  200      29.1%                               28.6%                                      28.6%
                                                                                                                                                                                                                20%
                             22.9%
    0                                                                                                                                                                                                           10%
           FY 00             FY 01             FY 02              FY 03               FY 04               FY 05                 FY 06               FY 07               FY 08                 FY 09

                                                                      Legal Source                                          Illegal Source
                                                                      Narcotics-Related                                     % Legal Source

Source: The IRS Data Books (Publication 55B) for FYs 2000 through 2005 and the CIMIS Report INV002
(Summary by Program Area) for FYs 2006 through 2009.

Figure 16: Number of Subjects Convicted and Sentenced for a Crime Each Fiscal Year.

 3,000

         2,475
 2,500                           2,251
                                                   2,201                                                                                                                                              2,229
                                                                                                              2,151                                     2,155                2,144
                                                                                           2,008                                      2,020
 2,000                           2,238                                 1,824
                                                                                                                2,095                                       2,123                                         2,105
         2,249                                                                                                                         2,019
                                                   1,926                                                                                                                            1,957
                                                                       1,768               1,777
 1,500


 1,000


  500


    0
           FY 00                 FY 01             FY 02              FY 03                FY 04               FY 05                   FY 06                FY 07                   FY 08                 FY 09

                                                                       Convicted                              Sentenced


Source: The IRS Data Books (Publication 55B) for FYs 2000 through 2005 and the CIMIS Report INV002
(Summary by Program Area) for FYs 2006 through 2009.




                                                                                                                                                                                                           Page 24
                                               Trends in the Criminal Investigation Division’s
                                               Enforcement Activities Showed Improvements;
                                                  However, Some Goals Were Not Attained



Figure 17: Number of Subjects Convicted of a Crime Each Fiscal Year by Compliance
Strategy Program and the Percentage That Is Legal Source Tax Crimes.

1,200                                                                                                                                                                                              100%

                                                                                                                                                                                                   90%

1,000                                                                                                                                                                                              80%




                                                                                                                                                                 958
                                                                                                                                             947
                          937




                                                                                                                          938




                                                                                                                                                                                     934
                                                                                                                                                                                                   70%




                                                                                                       894
                                                                                    837
  800                                                                                                                                                                                              60%
                                               788
             785




                                766




                                                                 760
           756




                                                                                                                                       732
                                                                                                                                                                                                   50%
         708




                                                                                                                                                                               679
                                                                                                                                                           666
                                                                                                 655
  600                                                                                                                                                                                              40%
                                                     616




                                                                                                             602
                                                                                          593




                                                                                                                    592
                                                                       585


                                                                              578
                    548




                                                                                                                                                                                                   30%
                                         522




                                                                                                                                         34.0%                                  32.3%
                                                                                                                                                            31.1%
                                                           479




                                                                               28.8%             30.5%               29.3%




                                                                                                                                                                                           492
                                                                                                                                                   476
  400     31.5%                           27.1%                                                                                                                                                    20%




                                                                                                                                                                       520
                                                                 26.3%
                      24.3%




                                                                                                                                489
                                                                                                                                                                                                   10%

  200                                                                                                                                                                                              0%
         FY 00       FY 01                FY 02             FY 03              FY 04              FY 05              FY 06              FY 07               FY 08               FY 09

                                      Legal Source                     Illegal Source              Narcotics-Related                         % Legal Source


Source: The IRS Data Books (Publication 55B) for FYs 2000 through 2005 and the CIMIS Report INV002
(Summary by Program Area) for FYs 2006 through 2009.

Figure 18: Number of Subjects Sentenced for a Crime Each Fiscal Year for
Tax-Related or Nontax-Related Violations and the Percentage That Is Tax-Related.
 1,000                                                                                                                                                                                             60%
                                                                                                                                              978




  900                                                                                                                                                                                 970
                                                                                                                                                                                                   55%
                                                                                                       900
                                               888




                                                                                                                                                                  864
                                                                                                                           861
                           859
           846




                          831




  800
         819
         810




                                                                                                                                                                                                   50%
                                                                                    750




  700
                                                                 726
                                                     721




                                                                                                                                                                               713
                                                                                                                                       677




                                                                                                                                                                                                   45%
                                                                                                                                                           645




  600
                                                                                                                    624
                                                                                                 615
                                         592




                                                                                                              580
                                                                        568
                   548




                                                                                                                                                                                             546
                                                                                                                                 535




  500                                                                                                                                                                                              40%
                                                                                           520
                                                                              507
                                                           474




                                                                                                                                                     468




                                                                                                                                                                         448




  400
                                                                                                                                                                                                   35%
  300
          33.1%                                                                                                                                                  33.0%           32.0%             30%
                                                                                                                                             31.9%
  200                                                                                                                     30.9%
                                                                                                 29.4%
                                                                                28.5%                                                                                                              25%
  100                                          26.9%             26.8%
                     24.5%
    0                                                                                                                                                                                              20%
          FY 00      FY 01                 FY 02             FY 03              FY 04              FY 05              FY 06                  FY 07               FY 08               FY 09

                                Legal Source                       Illegal Source                      Narcotics-Related                            % Legal Source


Source: The Division enforcement statistics from the IRS web site for FYs 2000 through 2005 and the CIMIS
Report INV002 (Summary by Program Area) for FYs 2006 through 2009.

                                                                                                                                                                                                 Page 25
                                               Trends in the Criminal Investigation Division’s
                                               Enforcement Activities Showed Improvements;
                                                  However, Some Goals Were Not Attained



Figure 19: Number of Subjects Sentenced for a Crime Each Fiscal Year by Compliance
Strategy Program and the Percentage That Is Legal Source Tax Crimes.
 1,000                                                                                                                                                                                                         60%




                                                                                                                                                            978




                                                                                                                                                                                                  970
  900
                                                                                                                                                                                                               55%




                                                                                                                 900
                                               888




                                                                                                                                                                               864
                                                                                                                                        861
                               859
           846




                              831




  800
         819
         810




                                                                                                                                                                                                               50%




                                                                                          750
  700                                                             726
                                                     721




                                                                                                                                                                                            713
                                                                                                                                                      677
                                                                                                                                                                                                               45%




                                                                                                                                                                         645
  600




                                                                                                                                  624
                                                                                                           615
                                         592




                                                                                                                       580
                                                                         568
                        548




                                                                                                                                                                                                        546
                                                                                                                                              535
  500                                                                                                                                                                                                          40%

                                                                                                520
                                                                                    507
                                                            474




                                                                                                                                                                  468




                                                                                                                                                                                     448
  400
                                                                                                                                                                                                               35%
  300
          33.1%                                                                                                                                                              33.0%           32.0%             30%
                                                                                                                                                         31.9%
  200                                                                                                                                   30.9%
                                                                                                           29.4%
                                                                                      28.5%                                                                                                                    25%
  100                                          26.9%              26.8%
                          24.5%
    0                                                                                                                                                                                                          20%
         FY 00            FY 01            FY 02              FY 03                   FY 04                  FY 05                  FY 06                FY 07               FY 08               FY 09

                                Legal Source                           Illegal Source                            Narcotics-Related                            % Legal Source


Source: The IRS Data Books (Publication 55B) for FYs 2000 through 2005 and the CIMIS Report INV002
(Summary by Program Area) for FYs 2006 through 2009.

Figure 20: Average Number of Months a Subject Is Incarcerated Each Fiscal Year by
Compliance Strategy Program. Incarcerated may include prison time, home confinement, electronic
monitoring, or a combination thereof.

   100
                                                                                                                                                    94




    90
                                                                                                                                                                                                               89
    80
                                                                                                                             82




                                                                                                                                                                                            82
                                                       81




                                                                                                                                                                        80
                                    79




                                                                               77
                   76




    70
                                                                                                      72




    60

    50

    40
                                                                                                                                                                                       38
                                                                                                                                               37




                                                                                                                                                                   35




                                                                                                                                                                                                          35
                                                                                                                       34




    30
                                                 33




                                                                        32




                                                                                                32
                               31
              27




    20
                                                                                                                                                                                                    20
                                                                                          18




                                                                                                                                                             18




                                                                                                                                                                                18
                                                                                                                 17




                                                                                                                                         17
                                                                  16
         15




                                           15




    10
                         13




     0
          FY 00               FY 01            FY 02               FY 03                   FY 04                   FY 05                      FY 06               FY 07              FY 08              FY 09

                                                     Legal Source                               Illegal Source                                Narcotics-Related


Source: The Division’s analysis of the CIMIS for FYs 2000 through 2005 and the CIMIS Report INV002
(Summary by Program Area) for FYs 2006 through 2009.

                                                                                                                                                                                                          Page 26
                                    Trends in the Criminal Investigation Division’s
                                    Enforcement Activities Showed Improvements;
                                       However, Some Goals Were Not Attained



Figure 21: Percentage of Investigations That Received Publicity Each Fiscal Year by
Compliance Strategy Program.
100%

 90%




                                                                                                                                         88.5%




                                                                                                                                                          87.9%
                                                                                                                        87.1%




                                                                                                                                        86.6%




                                                                                                                                                         85.5%
                                                                                                       84.1%




                                                                                                                       82.9%
 80%




                                                                                      81.8%


                                                                                                      81.3%
                                                                    78.1%
                                                         77.7%




                                                                                    77.6%
                                         76.1%


 70%




                                                                 71.0%
                                                     67.9%




                                                                                                                                                                  67.6%
                          64.5%




 60%
                                    62.8%




                                                                                                                                62.2%




                                                                                                                                                 61.8%
                                                                                              59.7%
           59.5%




                                  57.0%




                                                 56.0%




                                                                            55.8%




                                                                                                               55.5%
                      54.6%




 50%
       49.6%

       49.1%




                   48.1%




 40%

 30%

 20%

 10%

  0%
        FY 00        FY 01          FY 02          FY 03           FY 04              FY 05            FY 06            FY 07            FY 08            FY 09

                                  Legal Source                      Illegal Source                         Narcotics-Related

Source: The Division’s BPR reports.




                                                                                                                                                            Page 27
                   Trends in the Criminal Investigation Division’s
                   Enforcement Activities Showed Improvements;
                      However, Some Goals Were Not Attained



                                                                         Appendix VI

        Related Treasury Inspector General
       for Tax Administration Audit Reports

1. Statistical Portrayal of the Criminal Investigation Function’s Enforcement Activities
   From Fiscal Year 1999 Through Fiscal Year 2003 (Reference Number 2004-10-115,
   dated June 29, 2004).
2. Statistical Portrayal of the Criminal Investigation Function’s Enforcement Activities
   From Fiscal Year 1999 Through Fiscal Year 2004 (Reference Number 2005-10-081,
   dated May 16, 2005).
3. Statistical Portrayal of the Criminal Investigation Function’s Enforcement Activities
   From Fiscal Year 2000 Through Fiscal Year 2005 (Reference Number 2006-10-074,
   dated May 12, 2006).
4. Statistical Portrayal of the Criminal Investigation Function’s Enforcement Activities
   From Fiscal Year 2000 Through Fiscal Year 2006 (Reference Number 2007-10-083,
   dated June 6, 2007).
5. Statistical Portrayal of the Criminal Investigation Division’s Enforcement Activities
   for Fiscal Years 2000 Through 2007 (Reference Number 2008-10-133,
   dated July 9, 2008).
6. Statistical Portrayal of the Criminal Investigation Division’s Enforcement Activities
   for Fiscal Years 2000 Through 2008 (Reference Number 2009-30-053,
   dated March 26, 2009).
7. Criminal Investigation Division Resources Devoted to Supporting Recommended
   Prosecutions Can Be Enhanced With a Stronger Strategic Focus
   (Reference Number 2010-30-036, dated March 25, 2010).




                                                                                  Page 28
